Case: 19-1360

Document: 16-2

Filed: 01/07/2020

Page: 1

(2 of 5)

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
No. 19-1360
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

LARRY A. MEITZNER,

FILED

Jan 07, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)

Plaintiff-Appellant,
v.
BILL SCHUETTE; JOHN DOE; JANE DOE,
Defendants-Appellees.

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)

ORDER

Before: SUHRHEINRICH, BATCHELDER, and NALBANDEAN, Circuit Judges.

Larry A. Meitzner, a pro se Michigan litigant, appeals the district court’s judgment
dismissing his complaint.

This case has been referred to a panel of the court that, upon

examination, unanimously agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
Meitzner filed his complaint against then Michigan Attorney General Bill Schuette and
John/Jane Doe, asserting a conspiracy to violate his civil rights under 42 U.S.C. § 1985. Meitzner
alleged that he sent numerous communications to Schuette to initiate an investigation into the
“falsified per curiam” decision issued by the Michigan Court of Appeals in a prior action and that
Schuette chose to ignore his letters. As relief, Meitzner sought $15,000 in compensatory damages
and $50,000 in punitive damages to a scholarship program of his choice.
Meitzner’s case was initially assigned to Judge Cox. Pursuant to local rule, the case was
reassigned to Judge Ludington as a companion to one of Meitzner’s earlier cases.

Case: 19-1360

Document: 16-2

Filed: 01/07/2020

Page: 2

No. 19-1360
-2In response to Meitzner’s complaint, Schuette filed a motion, which was styled as a motion
for summary judgment but cited the legal standard for dismissing a complaint for failure to state a
claim pursuant to Federal Rule of Civil Procedure 12(b)(6). Meitzner filed a petition for injunctive
relief, a motion to recuse the magistrate judge, a motion for default judgment as to John/Jane Doe,
and a motion for declaratory judgment. Construing Schuette’s motion as a motion to dismiss, the
district court granted the motion, dismissed the complaint with prejudice, and denied Meitzner’s
pending motions.
Meitzner filed a motion to recuse Judge Ludington, which was mailed before the district
court entered its judgment dismissing his complaint. The district court denied Meitzner’s motion
as moot.
This timely appeal followed. Meitzner challenges the dismissal of his complaint and the
denial of his motion for Judge Ludington’s recusal. After briefing, Meitzner filed a motion for a
change of venue to another court of appeals.
We review de novo the district court’s dismissal of a complaint for failure to state a claim
pursuant to Rule 12(b)(6). Thompson v. Bank of Am., N.A., 773 F.3d 741, 750 (6th Cir. 2014).
“To survive a motion to dismiss, a complaint must contain sufficient factual matter, accepted as
true, to ‘state a claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678
(2009) (quoting Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007)).
Meitzner claimed a conspiracy to violate his civil rights under 42 U.S.C. § 1985. “It is
well-settled that conspiracy claims must be pled with some degree of specificity and that vague
and conclusory allegations unsupported by material facts will not be sufficient to state such a
claim .. . .” Gutierrez v. Lynch, 826 F.2d 1534, 1538 (6th Cir. 1987). To state a conspiracy claim
under 42 U.S.C. § 1985(2) or (3), “a complaint must allege both a conspiracy and some ‘classbased discriminatory animus behind the conspirators’ action.’” Newell v. Brown, 981 F.2d 880,
886 (6th Cir. 1992) (quoting Dunn v. Tennessee, 697 F.2d 121, 124 (6th Cir. 1982)); see Fox v.
Mich. State Police Dep’t, 173 F. App’x 372, 376 (6th Cir. 2006). Meitzner did not allege that
Schuette conspired with John/Jane Doe, instead making his allegations in the alternative: “The
addition of John/Jane Doe to the complaint is a ‘Plan B’ in case Bill Schuette swears under oath

(3 of 5)

Case: 19-1360

Document: 16-2

Filed: 01/07/2020

Page: 3

No. 19-1360
-3 that he never received any of the plaintiffs postings. The onus then falls on John/Jane Doe.” Even
if he sufficiently alleged a conspiracy between two or more persons, Meitzner failed to allege any
class-based discriminatory animus. The district court properly dismissed Meitzner’s complaint for
failure to state a § 1985 conspiracy claim.
Meitzner argues on appeal that the district court erred in converting Schuette’s motion for
summary judgment into a motion to dismiss and that the summary judgment standard should have
applied. Although styled as a motion for summary judgment, the body of Schuette’s motion did
not reference the summary judgment standard and instead set forth Rule 12(b)(6)’s standard for
dismissing a complaint for failure to state a claim. The district court therefore did not err in
analyzing Schuette’s motion under Rule 12(b)(6).
We review the district court’s denial of a recusal motion for an abuse of discretion. Decker
v. GE Healthcare Inc., 770 F.3d 378, 388 (6th Cir. 2014). Because the district court received
Meitzner’s recusal motion after judgment had been entered, the district court denied his motion as
moot.
On appeal, Meitzner argues that Judge Ludington’s “action in usurping control” over this
case violated his right to a fair judge as required by the Due Process Clause. “It is axiomatic that
‘[a] fair trial in a fair tribunal is a basic requirement of due process.’” Caperton v. A.T. Massey
Coal Co., 556 U.S. 868, 876 (2009) (quoting In re Murchison, 349 U.S. 133, 136 (1955)). The
Due Process Clause requires recusal “when, objectively speaking, ‘the probability of actual bias
on the part of the judge or decisionmaker is too high to be constitutionally tolerable.’” Rippo v.
Baker, 137 S. Ct. 905, 907 (2017) (quoting Withrow v. Larkin, 421 U.S. 35, 47 (1975)).
Meitzner’s allegations of bias involved Judge Ludington’s prior rulings, which “alone
almost never constitute a valid basis for a bias or partiality motion.” Liteky v. United States, 510
U.S. 540, 555 (1994). Meitzner also asserted that his motion for the magistrate judge’s recusal
created a conflict of interest because Judge Ludington recommended the magistrate judge for the
position and worked closely with the magistrate judge over the years; that Judge Ludington’s case
manager certified that a ruling in a prior case was mailed on a particular date, but the ruling was
postmarked on a different date; and that Judge Ludington wrote in a prior case that the magistrate

(4 of 5)

Case: 19-1360

Document: 16-2

Filed: 01/07/2020

Page: 4

No. 19-1360
-4judge would be sending paperwork, which never arrived. The facts alleged by Meitzner do not
create a probability of actual bias rising to an unconstitutional level. See Caperton, 556 U.S. at
886-87. Meitzner has failed to demonstrate that the district court abused its discretion in denying
his motion to recuse.
Meitzner moves for a change of venue to another court of appeals because “there is too
much baggage between the Plaintiff and the Court.” This court has appellate jurisdiction over
decisions of the United States District Court for the Eastern District of Michigan. See 28 U.S.C.
§§ 41, 1294(1). Any other court of appeals would lack jurisdiction to review the district court’s
judgment.
For these reasons, we DENY Meitzner’s motion for a change of venue and AFFIRM the
district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

Case l:18-cv-13950-TLL-PTM ECF No. 18 filed 02/01/19

PagelD.103

Page lot3

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
LARRY MEITZNER,
Plaintiff,

Case No. 18-cv-13950
Honorable Thomas L. Ludington

v.
BILL SCHUETTE, et al.
Defendant.
ORDER GRANTING MOTION TO DISMISS. DENYING MOTION FOR INJUNCTION.
MOTION FOR RECUSAL. MOTION FOR DECLARATORY JUDGMENT. MOTION
FOR DEFAULT JUDGMENT AND DISMISSING COMPLAINT
This case stems from a property dispute between Plaintiff and his neighbors. In 2010,
Robert and Donna Clark sued Meitzner in the Presque Isle Circuit Court over their easement
road running across his property. The trial court found in favor of the Clarks and enjoined
Meitzner from interfering with their use of the easement. The Michigan Supreme Court denied
leave to appeal. Clark v. Meitzner, 823 N.W.2d 603 (Mich. 2012). Meitzner subsequently
brought an action against the seven justices listed on the Michigan Supreme Court’s order. Case
No. 15-cv-14444. The case was dismissed. Plaintiff subsequently filed a similar case, which was
also dismissed. Case No. 15-cv-12870. A full summary can be found in the court’s orders
dismissing those complaints.
On December 18, Plaintiff filed a complaint against Bill Schuette and Jane and John Doe
accusing them of conspiracy to violate his rights under 42 U.S.C. § 1985(2)-(3). The caption
does not specify the capacity in which Bill Schuette is being sued, though the text of the
complaint refers to “Bill Schuette in his position of Michigan Attorney General.” In his motion

Case l:18-cv-13950-TLL-PTM ECF No. 18 filed 02/01/19

PagelD.104

Page 2 of 3

for declaratory judgment Plaintiff clarifies that his intent is to sue Mr. Schuette in his individual
capacity. In either case, Plaintiff has failed to state a claim, as explained below.
Defendant moves for “summary judgment” although the legal authority cited in the
motion is Federal Rule of Civil Procedure 12(b)(6) and Defendant argues that Plaintiff has failed
to state a claim. The motion will therefore be construed as a motion to dismiss. “To survive a
motion to dismiss, a complaint must contain sufficient factual matter, accepted as true, to ‘state a
claim to relief that is plausible on its face.’” Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). To state
a conspiracy claim under 42 U.S.C. § 1985(2) or (3), “a plaintiff must allege that there was
‘some racial, or perhaps otherwise class-based, invidiously discriminatory animus behind the
conspirators’ action.’” Fox v. Mich. State Police Dep’t, 173 F. App’x 372, 376 (6th Cir. 2006).
Plaintiff does not allege such animus. He alleges that Mr. Schuette did not respond to
Plaintiffs letters asking that the AG’s office open an investigation into the “falsified per curiam”
issued by the state court. Plaintiff has no legal right to receive a response to his letters or to have
an investigation opened at his request.
To the extent he asks this Court to review the state court judgment, this Court has no
jurisdiction to do so. See D.C. Ct. ofApp. v. Feldman, 460 U.S. 462, 476 (1983); Rooker v. Fid.
Tr. Co., 263 U.S. 413, 415-16 (1923).
Plaintiff also asks the Court to compel Defendant to answer under rule 8(b)(1)(B). A
defendant has no obligation to file an answer in response to a complaint. Rather, a defendant can
file a motion under rule 12 which extends the answer deadline until 14 days after the rule 12
motion is decided. See Fed. R. Civ. P 12(a)(4). Accordingly, the motion for injunction and
motion for default judgment will be denied.
Plaintiff also moves to recuse Magistrate Judge Morris. The motion is moot. No motions
-2-

Case 1:18-CV-13950-TLL-PTM ECF No. 18 filed 02/01/19

PagelD.105

Page 3 of 3

have been referred to Judge Morris.
Plaintiff also moves for declaratory judgment. ECF No. 16. The motion will be denied.
Plaintiff has not pled facts demonstrating his entitlement to any relief, declaratory or otherwise.
Plaintiffs cross motion for summary judgment will be denied on the same basis (his cross
motion for summary judgment is embedded in his response brief, ECF No. 17).
Accordingly, it is ORDERED that defendant’s motion to dismiss, ECF No. 9, is
GRANTED.
It is further ORDERED that the complaint, ECF No. 1, is DISMISSED with prejudice.
It is further ORDERED that Plaintiffs motion for injunction, for recusal, for default
judgment, for declaratory judgment, and for summary judgment (ECF Nos. 10, 11, 15, 16) are
DENIED.
s/Thomas L. Ludington
THOMAS L. LUDINGTON
United States District Judge
Dated: February 1, 2019
PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was served
upon each attorney by electronic means and to Larry Alien Meitzncr,
4209 Klee Rd., Rogers City, MI 49778 by first class U.S. mail on
February 1,2019.
s/Kellv Winslow
________
KELLY WINSLOW, Case Manager

-3-

Case l:18-cv-13950-TLL-PTM ECF No. 28 filed 04/01/19

PagelD.149

Page 1 of 2

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
NORTHERN DIVISION
LARRY MEITZNER,
Case No. 18-cv-13950
Honorable Thomas L. Ludington

Plaintiff,

v.
BILL SCHUETTE, et al.
Defendant.

ORDER DENYING MOTION FOR RECONSIDERATION
On December 18, Plaintiff fded a complaint against former Attorney General Bill
Schuette and Jane and John Doe accusing them of conspiracy to violate his rights under 42
U.S.C. § 1985(2)-(3). Plaintiff also filed motions for an injunction, for recusal, for default
judgment, for declaratory judgment, and for summary judgment, all of which were denied.
Defendant’s motion to dismiss was granted. ECF No. 18. A factual summary can be found in that
order. Judgment was entered against Plaintiff. ECF No. 19.
As Plaintiff is not an e-filer, he did not receive immediate notice of those filings,
including the judgment. While those filings were en route to Plaintiff via mail, he filed three
additional motions regarding the hearing that was originally scheduled for March 13, 2019:
motion to recuse, motion to include, and motion for expedited hearing. At the time he filed the
motions, Plaintiff was unaware that the hearing was cancelled and the motions were ruled on
without oral argument. His motions were therefore denied as moot as judgment had been entered
and Plaintiff had identified no basis for relief from that judgment.
Plaintiff also filed a document that he titled a “motion for reconsideration” but the

Case l:18-cv-13950-TLL-PTM ECF No. 28 filed 04/01/19

PagelD.150

Page 2 of 2

document contained a letter addressed to Chief Judge Hood. The motion was denied as it
contained no request for relief.
Plaintiff has now filed “a re-submission or Meitzner’s original Motion for
Reconsideration” because he wanted Judge Hood, and not this Court, to respond to his letter.
Filing letters on this Court’s docket is not an effective way to communicate with Judge Hood,
who does not receive such filings or review this Court’s docket. Because the motion requests no
relief from this Court, it will be denied.
Accordingly, it is ORDERED that the motion, ECF No. 26, is DENIED.
s/Thomas L. Ludington
THOMAS L. LUDINGTON
United States District Judge
Dated: April 1, 2019
PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was served
upon each attorney of record herein by electronic means and to Larry
Allen Meitzner, 4209 Klee Rd., Rogers City, MI 49779 by first class
U.S. mail on April 1,2019.
s/Kellv Winslow
_______
KELLY WINSLOW, Case Manager

-2-

